No.19-__

INTHE

~upreme ~ourt of tbe Wniteb ~tates
MYNOR ABDIEL TUN-Cos, ET AL.,

v.

Petitioners,

B. PERROTTE, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l{h), I, David M. Zionts, counsel for

petitioner and a member of the Bar of this Court, certify that the Petition for a Writ
of Certiorari in the above-captioned case contains 2,434 words, excluding the parts of
the petition that are exempted by Supreme Court Rule 33.l(d).
I further certify that all parties required to be served have been served.

November 20, 2019

David M. Zionts
Counsel of Record

COVINGTON & BURLING LLP

One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000

